NATIONAL CREDIT UNION ADMINISTRATION

        OFFICE OF INSPECTOR GENERAL




                     MATERIAL LOSS REVIEW OF
                      NEW LONDON SECURITY
                      FEDERAL CREDIT UNION


                Report #OIG-09-03   October 23, 2009




                         William A. DeSarno
                         Inspector General



Released by:                          Auditor-in-Charge:



James Hagen                           Charles Funderburk
Asst IG for Audits                    Senior Auditor
        OIG-09-03 MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION




                                      CONTENTS


Section                                                                       Page



   I       EXECUTIVE SUMMARY                                                   1

  II       BACKGROUND                                                          3

  III      OBJECTIVES, SCOPE AND METHODOLOGY                                   5

  IV       RESULTS                                                             7

                  Why New London Security Federal Credit Union                 7
                  Failed

                  NCUA Supervision of New London Security FCU                 13

                  Observations and Lessons Learned                            20

  APPENDICES

  A               Examination History                                         24

  B               Transaction Risk Indicators                                 26

  C               Documents of Resolution                                     27

  D               NCUA Management Comments                                    29
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



                              EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review of New London Security Federal Credit Union (New
London). We reviewed New London to (1) determine the cause(s) of the credit union’s
failure and the resulting loss to the National Credit Union Share Insurance Fund
(NCUSIF); and (2) assess NCUA’s supervision of the credit union. To achieve these
objectives, we analyzed NCUA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region I; and reviewed
NCUA guidance, policies and procedures, NCUA Call Reports, and NCUA Financial
Performance Reports (FPR).

We determined suspected fraud was the direct cause of New London’s failure due to a
misappropriation of credit union investment funds. As of June 30, 2008, the credit union
had $12.7 million in assets and investments accounted for $12.1 million of the total
assets. NCUA discovered that approximately $12 million in investments did not exist
and that investment brokerage statements appeared to be fabricated. New London’s
investment account manager served on New London’s Board of Directors for 19 years.
The account manager controlled substantially all of the investment activity and blank
investment statements were discovered in the account manager’s office. The account
manager also hand delivered the investment statements to the credit union. In addition,
a former credit union manager stated that the investment account manager asked her to
type information onto blank investment statements. The 82-year old account manager
committed suicide on July 28, 2008, the day of NCUA’s liquidation of New London.

We also determined New London management failed to implement adequate internal
controls over the credit union’s investment activity. Specifically, management allowed
the account manager to handle all investment activity without adequate oversight. For
example, the account manager made the investment purchase and sale decisions,
executed investment transactions, and submitted reports and recommendations to the
Board—with little or no credit union oversight. Beyond contracting with external auditors
to perform annually required work, the credit union Supervisory Committee was inactive
for more than four years. NCUA Documents of Resolution repeatedly recommended
that the Supervisory Committee become more active or contract out quarterly reviews
for such things as internal control reviews. Moreover, the Board repeatedly promised to
contract out quarterly reviews; however, this never occurred.

In addition, New London management repeatedly failed to take timely corrective actions
on NCUA Documents of Resolution. NCUA recommended that the credit union execute
a safekeeping/custodial agreement with a third party independent of the account
manager. According to NCUA examination documents, the New London board passed
a resolution to have a safekeeping arrangement with its investment brokerage firm and
the credit union’s attorney reviewed this agreement to ensure the credit union’s interests
were protected. However, NCUA staff was unable to locate a written safekeeping
agreement, which could have shown that the credit union’s interests were protected.




                                            1
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Furthermore, although the external auditor purportedly obtained annual independent
confirmations from the brokerage firm, the confirmations received were not sufficient to
ensure the investments existed. We determined there were several confirmation
responses the external auditor should have questioned and performed additional
confirmation procedures. For example, one confirmation request was mailed to the
brokerage firm’s headquarters in St. Louis, Missouri, but the confirmation response
received was from the account manager’s office in Waterford, Connecticut. Additionally,
for the six years of confirmations we reviewed, two confirmations were not signed and
the last two years’ confirmations were not in the external auditors’ work papers. The
external auditors failed to challenge the third-party confirmations, thereby allowing the
suspected fraud to go undetected.

Finally, we determined that NCUA examiners did not adequately evaluate the risk in the
New London’s investment program. Investments accounted for over 90 percent of the
credit union assets. While NCUA examiners noted the high concentration of
investments and the lack of controls over investments--including the lack of a
safekeeping agreement, they failed to elevate these repeated issues for stronger
supervisory actions. Consequently, examiners did not expand examination procedures
when they should have done so. In addition, NCUA examiners did not review or
document external auditor work papers. We found instances where NCUA examiner
work paper documentation contradicted the information found in the external auditor’s
work papers. Again, NCUA examiners did not ensure that credit union management
took corrective action on repetitive Document of Resolution issues by elevating those
issues to their superiors for stronger supervisory actions. Finally, the NCUA quality
control review did not ensure that the examiner took the recommended corrective
actions. As a result, NCUA missed opportunities to mitigate the loss to the NCUSIF
caused by New London’s failure.

In addition, we reviewed industry observations regarding occupational fraud. We
believe the industry’s observations apply directly to issues we observed during our
review. We determined New London’s lax internal control environment created an
environment susceptible to fraud. Our comparative analysis can be found in Section C
of this report.

We are not making recommendations. Instead, as major causes, trends, and common
characteristics of financial institution failures are identified in our reviews, we will
communicate those to management for its consideration. As resources allow, we may
also conduct more in-depth reviews of specific aspects of the NCUA’s supervision
program and make recommendations, as warranted.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




                                            2
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



BACKGROUND

New London Security Federal Credit Union

New London Security Federal Credit Union (New London), located in New London,
Connecticut, was chartered as a Federal credit union (FCU) in 1936. As of June 30,
2008, the credit union reportedly had approximately $12.7 million in total assets with net
investments totaling approximately $12 million. At the time of its failure, New London
had 365 members and with over 94 percent of its assets in investments, the credit union
operated primarily as an investment club.

New London was a small credit union where member deposits were limited to one
hundred dollars per month. The credit union had one employee, a manager, who
handled most of the credit union’s business activities such as manually maintaining the
credit union’s books and records and authorizing and posting cash receipts and
disbursements. New London also had five Board members and three Supervisory
Committee members. In 1988, New London changed investment brokerage firms1 and
the firm’s account manager who managed the credit union’s portfolio, also served on
New London’s Board of Directors from 1985 to 2004.

On July 28, 2008, the NCUA Board placed New London into involuntarily liquidation
pursuant to section 207(a)(1)(A) of the Federal Credit Union Act2 (FCU Act) and
appointed itself as liquidating agent. New London’s failure resulted in a loss to the
NCUSIF of approximately $9.6 million.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and interpreting
data; reaching conclusions; making recommendations; and developing action plans.
The objectives of the total analysis process include evaluating CAMEL 3 components,
and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL rating
includes consideration of key ratios, supporting ratios, and trends. Generally, the
examiner uses the key ratios to evaluate and appraise the credit union’s overall financial
condition. During an examination, examiners assign a CAMEL rating, which completes
the examination process.




1
  In October 2007, New London’s investment brokerage firm was acquired by another firm.
2
  12 U.S.C. §1787(a)(1)(A).
3
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management.



                                                       3
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 4 trend analysis, 5 reasonableness analysis, 6 variable data
analysis, 7 and qualitative data analysis. 8 Numerous ratios measuring a variety of credit
union functions provide the basis for analysis. Examiners must understand these ratios
both individually and as a group because some individual ratios may not provide an
accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or concentration
activities can serve as triggers of changing risk and possible causes for future
problems. NCUA also instructs examiners to look behind the numbers to determine the
significance of the supporting ratios and trends. Furthermore, NCUA requires
examiners to determine whether material negative trends exist; ascertain the action
needed to reverse unfavorable trends; and formulate, with credit union management,
recommendations and plans to ensure implementation of these actions.

New London received composite CAMEL code 2 ratings in 2002, 2003, and 2007.
From 2004 through 2006, the credit union received composite CAMEL code 3 ratings.
(See Appendix A Table A-1 for New London’s CAMEL ratings.)

Risk-Focused Examination Program

In May 2002, NCUA announced its new Risk-Focused Examination (RFE) Program, for
implementation in the fall of 2002. Risk-focused supervision procedures often include
both off-site and on-site work that includes reviewing off-site monitoring tools and risk
evaluation reports. The RFE process includes reviewing seven categories of risk:
Credit, Interest Rate, Liquidity, Transaction, Compliance, Strategic, and Reputation.
Examination planning tasks may include (a) reviewing the prior examination report to
identify the credit union’s highest risk areas and areas that require examiner follow-up;
and (b) analyzing Call Report and FPR trends. The extent of supervision plans
depends largely on the severity and direction of the risks detected in the credit union’s
operation and on management’s demonstrated ability to manage those risks. A credit
union’s risk profile may change between examinations. Therefore, the supervision
process encourages the examiner to identify those changes in profile through:

    •    Review of Call Reports,

    •    Communication with credit union staff,

4
  Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
5
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
6
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.
7
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process enables
examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of service, and
risk potential.
8
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.



                                                           4
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



    •    Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program. 9 NCUA indicated these
changes were necessary due to adverse economic conditions and distress in the
nation’s entire financial structure, which placed credit unions at greater risk of loss. The
NCUA stated that the 12-Month Program will provide more timely relevant qualitative
and quantitative data to recognize any sudden turn in a credit union's performance.

Objective, Scope and Methodology

The FCU Act 10 requires the NCUA’s OIG to conduct a material loss review when the
NCUSIF incurs a material loss with respect to an insured credit union. The Act defines a
material loss as (1) exceeding the sum of $10 million and (2) an amount equal to 10
percent of the credit union’s total assets at the time at which the Board initiated
assistance or was appointed liquidating agent. In addition, the OIG has discretion to
perform material loss reviews when the loss is less than $10 million. The estimated loss
of $9.6 million did not exceed the $10 million threshold; however, the loss accounted for
76 percent of New London’s assets, which far exceeded the 10 percent threshold and
the cause of the credit union’s failure was suspected fraud. Consequently, NCUA OIG
initiated a Material Loss Review.

The objectives of our review were to (1) determine the cause(s) of New London’s failure
and the resulting loss to the NCUSIF, and to (2) assess NCUA’s supervision of the
credit union. To accomplish our objectives we conducted fieldwork at NCUA’s
headquarters in Alexandria, VA and the regional office in Albany, NY. Our review
covered the period from September 2002 to July 2008, New London’s liquidation date.

To determine the cause of New London’s failure and assess the adequacy of NCUA’s
supervision we:

    •    Analyzed NCUA examination and supervision reports and related
         correspondence;

    •    Reviewed external auditor work papers;

    •    Interviewed NCUA staff; and

    •    Reviewed NCUA guidance, policies and procedures, Call Reports (5300
         Reports), and FPRs.

We used computer-processed data from NCUA’s Automated Integrated Regulatory
Examination Software and Credit Union Online systems. We did not the test controls

9
  The 12-month program requires either an examination or a material on-site supervision contact within a 10 to 14
month timeframe based on risk-based scheduling eligibility.
10
   The FCU Act §216(j), 12 U.S.C. § 1790d(j).



                                                         5
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



over these systems. However, we relied on our analysis of information from
management reports, correspondence files and interviews to corroborate data obtained
from these systems to support our audit conclusions.

We conducted this audit from February 2009 through October 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Management reviewed a
discussion draft of this report. We incorporated their suggested changes where
appropriate.




                                            6
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



RESULTS IN DETAIL

We determined embezzlement of the credit union’s investment funds was most likely
the cause of New London’s failure. We also determined that New London
management’s actions and the actions of New London’s external auditors facilitated the
suspected fraudulent activity. In addition, we determined had NCUA examiners taken
stronger supervisory actions regarding New London’s lack of internal controls, NCUA
may have detected the suspected fraud sooner and potentially mitigated the loss to the
NCUSIF.

A. Why New London Security Federal Credit Union Failed

     Suspected                     We determined a suspected fraudulent act caused the credit
     Embezzlement of               union to fail. Specifically, the account manager was
     Investment Funds              suspected of embezzling approximately $12 million from the
                                   credit union’s investment account portfolio. This resulted in
                                   an estimated loss of $9.6 million to the NCUSIF.

During the June 2008 examination, an NCUA examiner who had been recently
assigned to New London 11 became concerned with the excessive terms of some of the
investments in the credit union’s $12 million portfolio. The examiner questioned the
suitability of the investments and became further concerned when the credit union
manager could not answer any questions about the investments. In addition, the
examiner noted the printing on the credit union’s investment statement looked odd.
Further, the examiner determined New London’s investment activity on its general
ledger had not been updated since February 2008.

In addition to conducting the regular examination process, the examiner requested that
the credit union manager provide copies of the brokerage statements and investment
trade tickets. The examiner then requested assistance to confirm the value and
permissibility of the investments and continued the regular examination process.
Accordingly, examiners began to review the credit union’s general ledger, investment
brokerage statements, and other documentation. As a result, examiners identified the
following:

      • New London’s brokerage statements and its general ledger listed called
        investments, 12 which should not have been listed because the credit union did
        not own the investments;

      • Investment trade tickets did not show the investments were callable and could
        therefore be redeemed at anytime by the issuer; and


11
   NCUA guidelines require examiners-in-charge rotate credit unions on a four calendar year time period basis. A
different examiner had conducted the four previous regular examinations prior to the June 2008 examination.
12
   A callable investment is a municipal, corporate, federal agency, or government security that gives the issuer of the
bond the right to redeem it at a predetermined price, at a specified time, prior to maturity.



                                                           7
        OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



   • Investment trade tickets and brokerage statements appeared to have been
     altered.

New London received monthly brokerage statements for two accounts. One account
was the investment account and the other was a deferred compensation account.
NCUA examiners compared both June 2008 statements to each other and noticed that
the investment statement differed in appearance from the deferred compensation
statement. By comparing the statements and interviewing the involved parties,
examiners found:

   •   The investment statement letterhead listed only the investment firm, while the
       deferred compensation statement letterhead listed both the investment firm and
       the firm that acquired the investment firm in 2007;

   •   The investment statement contained manually typed information, while the
       deferred compensation statement was computer-generated;

   •   The account manager hand delivered the monthly investment statements to the
       credit union whereas the deferred compensation statements were mailed to the
       credit union; and

   •   The credit union‘s previous manager, who had since retired, typed up the
       investment statements for the credit union’s account manager.

After reviewing the original statements and supporting documentation, examiners visited
the investment firm’s local brokerage office to verify the existence of the investment
account. Examiners found that according to the investment firm, the credit union did not
have an investment account worth $12 million. Specifically, examiners determined the
existence of one brokerage account, the New London Security FCU Deferred
Compensation account, which as of July 2008 held approximately $55 thousand in
investments. The assistant manager for the investment firm told examiners the account
number used for the investment account did not belong to the credit union. Examiners
later determined that the account number used by the credit union’s account manager
was actually the account number for a shoe company, which was owned by the family
of the account manager’s wife.

The investment firm’s Senior Regulatory Counsel confronted the account manager
regarding the credit union’s brokerage statements. According to Counsel, the account
manager denied knowing anything about the statements and denied hand delivering the
investment statements to the credit union. Subsequently, the account manager
committed suicide on the day of liquidation. A criminal investigation, which was closed
because the account manager committed suicide, led to the discovery of evidence
suggesting the credit union’s account manager was involved in the suspected fraud.
For example, blank investment brokerage statements, similar to those used in the
conduct of the suspected fraud, were found in the account manager’s office.




                                            8
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



                              We determined New London management, which includes
     Lack of adequate         the Board of Directors, Supervisory Committee and the
     internal controls        Credit Union Manager, failed to implement adequate
                              internal controls. Specifically, management allowed the
account manager to handle investment activity without adequate oversight. In addition,
the credit union’s Supervisory Committee was ineffective, investment safekeeping was
not segregated from investment activity, and management did not have adequate
controls in place to ensure the legitimacy of the investments. As a result, the account
manager was able to conduct the suspected fraud for an undeterminable period.

New London management failed to provide adequate oversight over its
investment account

We determined New London’s internal controls were limited, which resulted in a lack of
oversight over the broker and the investment activity. Specifically, the account manager
for the New London investment account made the investment purchases and sales,
collected investment income, hand delivered monthly brokerage statements to the credit
union and submitted reports to the board on investment activity and status. As a result,
the account manager was in a position to conceal any improper or fraudulent activity.

As previously discussed, New London was a small credit union operating as an
investment club due to the fact that over 94 percent of its assets were in investments.
According to NCUA guidance, when small credit unions have difficulty segregating
duties, the board or the supervisory committee must become involved to ensure there
are checks and controls over credit union activities. 13

Although the credit union board authorized investment purchases and sales, a review of
board minutes and statements made by the credit union manager indicated the account
manager made all investment decisions.

New London’s Supervisory Committee provided limited oversight

New London’s Supervisory Committee provided limited oversight for more than four
years. Specifically, the credit union’s Supervisory Committee did not provide sufficient
oversight of Prompt Corrective Action (PCA) compliance, risk management needs,
operational issues, and internal controls dating back to June 2004.

According to NCUA guidance, supervisory committees are responsible for ensuring that
credit union Boards of Directors and management establish practices and procedures
that sufficiently safeguard member assets.14 In addition, the supervisory committee
must determine whether policies and control procedures are sufficient to safeguard
against error, conflict of interest, self-dealing, and fraud. 15 Furthermore, federally
insured credit unions are required to obtain a supervisory committee audit at least once

13
   NCUA Federal Credit Union Handbook, part V, pg 35 Methods and Procedures section.
14
   NCUA Rules and Regulations Section 715.3(a)(2).
15
   NCUA Rules and Regulations Section 715.3(b)(4).



                                                      9
         OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



every calendar year. 16 If an audit is performed or contracted out, a review of the
structure of the credit union’s internal controls and accuracy of the credit union’s records
must be performed. 17

We determined New London’s Supervisory Committee contracted with external auditors
to perform annually required audits and reviews. However, the supervisory committee
did not take necessary corrective actions or perform their due diligence in monitoring
the credit union’s operations to ensure member assets were protected. Specifically, in
Document of Resolution (DOR) items prepared during four consecutive 18 examinations,
examiners recommended that the Supervisory Committee perform periodic and/or
quarterly reviews of New London’s various operations. In addition, these same DORs,
except for the March 31, 2006 examination, stated the supervisory committee needed to
maintain meeting minutes and obtain on-going training. (See Appendix C, Table C-1 for
DOR items related to this report.)

Further, we believe the Supervisory Committee and the Board did not take corrective
actions regarding issues identified by the external auditor. From June 2003 through
June 2007, the external auditor repeatedly addressed the lack of segregation of duties
over cash activities and the lack of Supervisory Committee periodic reviews through
management letters. We also reviewed the external auditor’s work papers and
determined they performed very limited reviews of New London’s internal controls.
Although these limited reviews appeared to have documented an understanding of New
London’s internal control environment, we believe the external auditors did not test the
controls to ensure their effectiveness.

During the September 30, 2003, examination, the examiner did not review the
Supervisory Committee minutes because the minutes did not exist. During the June 30,
2004, and March 31, 2005, examinations, Supervisory Committee checklists indicated
that the Supervisory Committee was inactive and the examiner noted he was not
comfortable with the Supervisory Committee’s lack of familiarity with credit union
operations. Finally, during the March 31, 2007, examination, the examiner could not
review the Supervisory Committee minutes because the committee had not met.

We believe the Supervisory Committee and the Board did not take the necessary
corrective actions to ensure internal controls were stronger. As a result, member assets
were not protected and the suspected fraud continued undetected and undeterred.

Investment account activity and investment safekeeping not segregated

New London management did not ensure there was a separation of functions between
investment safekeeping 19 and managing the investment account. According to the
examiner work papers, a credit union Board resolution allowed its brokerage firm to

16
   NCUA Rules and Regulations Section 715.4, 715.5, 715.7.
17
   Supervisory Committee Guide 4.03.
18
   The four consecutive examinations were June 30, 2004, March 31, 2005, March 31, 2006, and March 31, 2007.
19
   Safekeeping is the holding of a client’s securities on their behalf in the client’s name.



                                                      10
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



perform both the investment safekeeping and managing the investment account activity
for New London. Consequently, these two investment functions were not independent
of each other. In addition, examiners could not locate a written safekeeping/custodial
agreement. We believe that had an independent third party been used for investment
safekeeping, the loss to the NCUSIF may have been mitigated.

NCUA regulations require that a credit union’s written investment policies address third-
party safe keepers used by Federal credit unions. 20 NCUA regulations also address
internal controls regarding how credit unions conduct investment trading activities,
including segregation of duties.21 In addition, NCUA guidelines state that purchased
investments must be in the credit union’s possession, recorded as owned by the credit
union through the Federal Reserve Book-Entry System, or held by a board-approved
safe keeper under a written custodial agreement. 22 New London did not meet any of
these requirements.

The investments were held in street name 23 by the account manager and not in a
secured area under dual control or in a safekeeping agreement with an independent
third party. During the September 30, 2002, examination, and repeated in both the
June 30, 2004, and March 31, 2005, examinations, the examiner identified as a DOR
item the need for an independent, reliable, investment safekeeping agreement. (See
Appendix C Table C-2 for details.) According to the examiner, New London’s Board
passed a resolution to have a safekeeping agreement with the brokerage firm. The
examiner indicated that the credit union’s attorney had reviewed the agreement to
ensure the credit union’s interests were protected. However, NCUA was unable to
locate a copy of the safekeeping agreement.

We believe a truly independent and properly executed investment safekeeping
agreement would have strengthened internal controls and may have prevented the
suspected fraud from occurring. We also believe New London’s management and
Board did not sufficiently address internal control weaknesses, by ensuring that the
required custodial agreement was properly executed and protected the credit union’s
investments. (Appendix C Table C-3 shows the repetitive DORs for legal review.)

                                      We determined that the external auditor’s annual
     External Auditor’s               independent confirmations, which it purportedly received
     Failure to Act                   from the brokerage firm, were not sufficient to ensure the
     Allowed the                      investments existed. Specifically, we determined there
     Suspected Fraud to               were several confirmation responses for which the external
     Go Undetected                    auditor should have questioned the authenticity and
                                      performed additional confirmation procedures. We believe



20
   NCUA Rules and Regulations Section 703.3(i).
21
   NCUA Rules and Regulations Section 703.3(k)(7).
22
   NCUA Rules and Regulations Section 703.9(a).
23
   Securities held in street name are registered in the name of the brokerage firm on the issuer's books, and the
brokerage firm holds the security for the client in book-entry form.



                                                         11
            OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



that had the external auditors challenged the third-party confirmations, the suspected
fraud may have been detected sooner, and consequently, the loss to the NCUSIF could
have been mitigated.

According to auditing best practices, the auditor should direct the confirmation request
to a knowledgeable third party who has oversight over the holder of the investments. 24
Best practices also dictate that auditors should maintain control over the entire
confirmation process, from mailing out the confirmation requests to ensuring the
confirmation requests are mailed directly back to the auditor. 25 In this case, to confirm
New London’s investments, the external auditor should have mailed confirmation
requests directly to the brokerage firm’s headquarters and received confirmations
directly from that office.

We reviewed the external auditor’s work papers from 2002 through 2007 and
determined there were several confirmation responses the external auditor should have
questioned. Specifically, an investment firm representative did not sign the June 2004
confirmation response letter. The June 2005 confirmation request was mailed to the
investment firm’s St. Louis headquarters; however, the unsigned confirmation letter was
received from the local Waterford, Connecticut office. In addition, while neither the June
2006 nor the June 2007 external auditor work papers contained a copy of the
confirmation response letter for the investment account, a confirmation response was
received for the deferred compensation account for the June 2006 request.
Additionally, an investment firm manager told the examiner that the local investment
office never received an investment confirmation request from New London Security
FCU for 2007. The manager further stated it was policy to forward confirmation
requests to the St. Louis office. The external auditors should have challenged the
discrepancies in the third-party confirmations. Table 1 (below) shows the external
auditor’s confirmation requests and receipts by year.

                 Table 1: Confirmation Requests, Receipts, and Discrepancies

     Exam Date         Confirmation                   Confirmation                     Discrepancies
                       Request Addressed              Response Received                Found by OIG
                       to                             From
     6/30/02           St. Louis, MO office           St. Louis, MO office             None
                       For investment
                       account.

     6/30/03           St. Louis, MO office           St. Louis, MO office             No title under
                       For investment                                                  signature
                       account.




24
     American Institute of Certified Public Accountants (AICPA) Professional Standards AU Section 330.04.
25
     AICPA Professional Standards AU Sections 330.26 & 330 .28.



                                                          12
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



 6/30/04       St. Louis, MO office    St. Louis, MO office      Not signed
               For investment
               account.

 6/30/05       St. Louis, MO office    Waterford, CT office      Not signed
               For investment
               account.                                          Confirmation did not
                                                                 come from
                                                                 headquarters.

 6/30/06       St. Louis, MO office


               For investment          None                      No copy of
               account.                                          response letter in
                                                                 work papers
                                                                 (investment
                                                                 account)


               For Deferred            St. Louis, MO office
               Compensation            (Deferred
               account.                Compensation              None
                                       account)

 6/30/07       Waterford, CT office    None                      Confirmation mailed
                                                                 to local office

                                                                 No copy of
                                                                 response letter in
                                                                 work papers


B. NCUA Supervision of New London Security Federal Credit Union


 Weak Supervisory            We determined NCUA examiners did not adequately
 Actions Created             evaluate the risks to New London’s investment program.
 Missed Opportunities        Specifically:

  •   Examiners did not view the concentration of investments, the lack of controls
      over investments, or the lack of safekeeping agreements as safety and
      soundness concerns serious enough to warrant more aggressive supervisory
      action;




                                          13
               OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



       •   We found instances where NCUA examiner work papers contradicted the
           information found in the external auditor’s work papers;

       •   Examiners should have reviewed external auditor work papers because the work
           papers included investment confirmations. The investments accounted for over
           90 percent of the credit union’s assets;

       •   Examiners did not ensure credit union management took corrective action on
           repetitive DOR issues by elevating those issues to the Supervisory Examiner for
           stronger supervisory actions; and

       •   NCUA’s quality control review did not ensure that the examiner took the
           recommended corrective actions.

As a result, NCUA missed opportunities to mitigate the loss to the NCUSIF caused by
New London’s failure.

NCUA’s risk focused examination process should determine the adequacy of internal
controls and the degree of reliance on the work efforts completed by competent,
professional individuals and documented in reports and audits.26 For example,
evaluating internal controls involves:

           •     Identifying the internal control objectives relevant to the credit union;

           •     Reviewing pertinent policies, procedures, and documentation;

           •     Discussing controls with appropriate levels of personnel;

           •     Observing the control environment;

           •     Testing transactions as indicated by the level of risk;

           •     Sharing findings, concerns, and recommendations with the board of directors
                 and senior management; and

           •     Determining that the credit union has promptly corrected noted deficiencies.27

In addition, NCUA guidance indicates examiners should base the scope, type, and
depth of an internal control review on the credit union’s size, complexity, scope of
activities, and risk profile. An assessment of the credit union’s audit function plays an
important part in this determination. When management or examiners note internal
control weaknesses, the credit union should take immediate action to correct the
deficiencies.

26
     NCUA Examiner’s guide, Chapter 1-21.
27
     NCUA Examiner’s guide, Chapter 4-8.



                                                   14
        OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



As discussed in the background section, New London held a significant concentration of
its assets, over 91 percent in investments from 2002 to 2008. (Appendix A, table A-3
lists assets concentration percentages by year.) However, there were limited internal
controls over the investment area. Specifically, one person controlled all investment
transactions. NCUA conducted six examinations of New London between 2002 and
2007. In the examination DORs, examiners repeatedly expressed concerns over and
provided recommended corrective actions regarding the lack of a safekeeping
agreement and an inactive supervisory committee. However, we determined examiners
did not ensure the credit union took corrective action on these repeat DOR issues.
Despite New London’s significant investment concentration and lack of controls over the
investment portfolio, examiners did not elevate the issues to NCUA managers for
stronger supervisory actions or effectively expand its supervision of New London.

Although the external auditor conducted investment confirmations, we found that the
NCUA examiner never reviewed external auditor work papers to verify that investment
confirmations were performed or to determine the quality of the confirmations. The
examiner also did not perform an independent confirmation on the investments. The
examiner stated that (1) he relied on the external auditors to perform investment
confirmations as part of their opinion audits; and (2) a review of the external auditors’
work papers was generally not required. Finally, the examiner never completed any of
the following examination checklists:

          •   Investment controls;

          •   Investment accounting controls;

          •   Investment third party controls;

          •   Investment custodial controls; or

          •   Red Flag Procedures

Examiners did not view the lack of internal controls as safety and soundness
concerns

Examiners did not consider New London’s lack of internal controls over investment
safekeeping or supervisory committee inactivity as a serious enough risk to the credit
union’s assets to warrant more aggressive supervision. As stated earlier, while the
examiner noted that credit union’s attorney had reviewed the safekeeping agreement,
NCUA was unable to locate a copy of the safekeeping agreement. In addition, the
custody of investments was not held independently from the account manager
managing the account. Examination documentation shows the continued inactivity of
the supervisory committee—in particular, its failure to conduct the recommended
quarterly reviews. To compensate for New London’s lack of internal controls, NCUA
should have expanded its examination procedures.




                                            15
         OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



According to NCUA guidance, risk is the potential that events, expected or
unanticipated, may have an adverse effect on a credit union’s net worth and earnings.28
Transaction risk is the risk to earnings or capital arising from fraud or error that results in
an inability to deliver products or services, maintain a competitive position, and manage
information. This risk (also referred to as operating or fraud risk) is a function of internal
controls, information systems, employee integrity, and operating processes. This risk
arises on a daily basis in all credit unions as they process transactions. 29 In addition,
transaction risk indicators include nine factors, which are:

     •   Board and Operational Management Understanding,

     •   Responsiveness to Market and Technological Conditions,

     •   Risk Exposure,

     •   Transaction Processing Controls,

     •   Systems and Control, Management Information Systems,

     •   New Products or Service,

     •   Conversion Management, and

     •   Problem Identification and Corrective Action. 30

During most NCUA examinations at New London, the examiners did not rate the lack of
internal controls over investment safekeeping or an inactive supervisory committee as a
high transaction risk. Specifically, for four of the six examinations, from 2002 through
2007, examiners rated transaction risk as moderate. However, the examiner rated
transaction risk high on the September 30, 2002, examination because of the concerns
over the safekeeping agreement; and on the June 30, 2004, examination he rated
transaction risk high because of supervisory committee inactivity. According to the
supervisory examiner (SE), examiners did not rate transaction risk high because the
external auditor did not indicate any concerns regarding the safekeeping of investments
or with the investment existence. In addition, the SE stated that because there were no
major recordkeeping issues, there appeared to be very little risk. The SE also
commented that when credit union management contracted with their external auditors
in September 2006 to perform quarterly internal control reviews, transaction risk was not
rated high. Appendix A, Table A-2 contains New London’s risk ratings.

We assessed the examinations from 2002 through 2007 and determined that the
examiner should have rated Board and Operational Management Understanding, Risk
Exposure, Transaction Processing Controls, Systems and Control, and Problem
28
   NCUA Examiners Guide, page 1-5.
29
   NCUA Examiners Guide, page 1-6 and 1-7.
30
   NCUA Examiners Guide, Chapter 2 Attachment 2.1.



                                                     16
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Identification and Corrective Action as high risks. We also determined there were
serious safety and soundness concerns because New London management allowed its
account manager to handle all investment activities without a written
safekeeping/custodial agreement with an independent third party. In addition, the
supervisory committee was largely inactive and did not perform quarterly reviews since
at least 2004. Furthermore, examiners should have reviewed and questioned the
unsigned investment confirmations. Appendix B contains the nine factors comprising
the transaction risk indicators.

Examiners did not adequately document examination results

We determined examiners did not adequately document the results of their examination
and supervision contacts in the work papers. Particularly troubling were issues
examiners did not document in the work papers. In these cases, we found it difficult to
assess exactly what the examiner had reviewed. In other instances, examiners’ work
paper documentation contradicted additional information we reviewed regarding the
credit union. For instance, we found:

   •   Examiners’ work papers indicated the credit union’s attorney reviewed the
       investment safekeeping agreement. However, we found no evidence that a
       safekeeping agreement existed;

   •   The examiner noted on a Supervisory Committee Audit Verification checklist that
       there were no internal control findings or material weaknesses; however, the
       external auditor noted the credit union had internal control issues. In addition,
       we believe the credit union’s severe lack of internal controls such as the
       supervisory committee inactivity, failure to segregate duties, and the lack of a
       safekeeping agreement should have warranted a material weakness;

   •   No evidence showing the examiners reviewed the external auditor’s work
       papers; and

   •   No evidence that New London’s Board ever formally adopted written investment
       policies.

Examiners did not elevate repeated Document of Resolution issues for stronger
supervisory actions

Examiners did not ensure New London management took corrective actions on
repetitive issues detailed in DORs to prevent them from becoming problems.
Specifically, supervisory committee and investment safekeeping issues identified by
examiners in four of the six examinations we reviewed were continually repeated in
subsequent DORs. However, examiners did not elevate those issues to the SE for
stronger supervisory actions such as a Regional Director’s Letter, or a Letter of
Understanding and Agreement. We determined, for example, examiners did not
request stronger supervisory actions to address the lack of a safekeeping agreement



                                          17
        OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



with an independent third party. We believe the multiple instances of repeat DOR items
and the failure to take more stringent supervisory actions resulted in missed
opportunities to uncover the suspected investment fraud.

Although we determined New London’s internal controls were deficient, the SE
indicated there were no serious recordkeeping concerns, suspicions of fraud, or noted
investment transaction concerns. The SE also indicated that the external auditors
verified investments and there were few other major risks or areas of concern. As a
result, repetitive issues were not elevated for stronger supervisory actions. However,
the lack of internal control was high in the area of concentration risk (investments); the
examiner never reviewed the external auditor verification procedures; and the
requirement for a written safekeeping agreement with an independent party was not
enforced.




                                            18
            OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



NCUA’s quality control review was ineffective

The Division of Supervision Quality Control Review, conducted following the March 31,
2006, examination, recommended the examiner expand the scope of the review to
include an assessment of management’s administration of the investment portfolio
including the purchase and safekeeping of securities. However, the examiner did not
document in the examination work papers whether any such additional procedures were
performed. 31 As a result, we could not determine whether the examiner performed the
additional procedures.




31
     Examiners are currently not required to comply with DOS recommendations.



                                                        19
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



C. Observations

This section addresses observations regarding credit union operations and
management actions.

                               We reviewed industry observations regarding
     Credit Union
                               occupational fraud. 32 We believe the industry’s
     Operations and
                               observations apply to issues we observed during our
     Managements
                               review of New London’s failure. For example, the
     Actions                   Association of Certified Fraud Examiners (ACFE) reported
                               in their 2008 report to the nation 33 the implementation of
anti-fraud controls has a measurable impact on an organization’s exposure to fraud.
ACFE examined 15 specific anti-fraud controls and measured the median loss in fraud
cases depended on whether organizations did or did not have a given control in place at
the time of the fraud. In every comparison, the ACFE found significantly lower losses
when controls had been implemented. We determined New London’s lax internal
control environment created an environment susceptible to fraud.

The following table lists other industry observations regarding fraud and how they
compare to our observations about New London’s failure:

        Industry Observations                          NCUA OIG Observations of
         of Fraudulent Activity                          New London’s Failure
        Lack of adequate internal Lack of segregation of duties.
        controls is the most      No written safekeeping/custodial agreement.
        common factor that
        allows fraud to occur.    Supervisory Committee inactive.

        Small businesses have              Lack of segregation of duties due to low number
        been determined to be              of employees.
        most susceptible to
        occupational fraud.                One person handling all investment activities.

        Lack of management                 Supervisory Committee inactive.
        review allows fraud to             Repeated DOR items not addressed.
        occur.
                                           Quarterly reviews not performed.

Although, we determined that more diligent and aggressive supervision on the part of
NCUA may have mitigated the loss, we believe the cause of New London’s failure was


32
   The Association of Certified Fraud Examiners defines occupational fraud as “the use of one’s occupation for
personal enrichment through the deliberate misuse or misapplication of the employing organization’s resources or
assets.”
33
   Association of Certified Fraud Examiners, 2008 Report to the Nation on Occupational Fraud and Abuse.



                                                        20
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



directly attributable to the suspected fraud committed against its members through the
actions of one individual.

Observations from our review include:

Internal Control Environment was Not a High Priority

Examiners did not consistently view New London’s lack of internal controls as a high
transaction risk despite this issue representing an inherent problem in smaller credit
unions. Prior to New London’s failure, NCUA guidelines did not require additional
examination procedures unless a problem presents itself. We believe the discovery of a
problem may not present itself unless additional procedures are performed. 34
Opportunities exist to reinforce the need for additional procedures. For example, NCUA
management could:

     •   Emphasize the importance additional procedures, such as the Red Flag review,
         and expanding procedures when red flags are detected. This could be
         accomplished through training modules at the Recordkeeping and Internal
         Control Subject Matter Examiner training conferences, at regional conferences
         and at regularly held examiner training;

     •   Have the Office of Small Credit Union Initiatives provide training on the
         importance of internal controls and the responsibilities of the Supervisory
         Committee during their credit union workshops and through issued guidance; and

     •   Stress that an independent investment custodian is extremely important when (1)
         examiners determine a credit union’s investments are material and (2) the
         internal controls over a credit union’s investment activity are weak and the
         examiner cannot confirm that the investments exist by either physical inspection
         or are recorded as owned by the credit union through the Federal Reserve Book-
         Entry System.




34
  NCUA Instruction 5000.20 and corresponding memo entitled Risk-Focused Examinations and Supervision –
Updated Minimum Scope Requirements, requires examiners to complete the Red Flag Questionnaire at all
examinations of credit unions with less than $20 million in assets. The requirements in this instruction and memo
became effective for all examinations conducted after March 31, 2009.



                                                         21
        OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



External Audit Work Papers Not Reviewed

Examiners did not review or document work papers developed external to the
examination of New London. NCUA guidelines do not require or recommend such
reviews unless a problem with the external auditor is suspected. However, we believe
that if examiners rely upon the work of others--such as the supervisory committee, or
internal or external auditors--then that work should be documented accordingly and
made part of the NCUA examination record. Furthermore, we found:

   •   Examiners using the work of others to support the examination conclusions,
       findings and recommendations did not adequately document the review of
       external work papers nor make them a permanent part of the examination work
       papers;

   •   NCUA Letter to Credit Unions 03-LCU-07 provides guidance on selected
       provision of the Sarbanes-Oxley Act of 2002 such as audit partner rotation and
       management assessment of internal controls. However, the Act does not
       specifically apply to credit unions. While NCUA urges credit unions to
       periodically review their policies and procedures as they relate to matters of
       auditing, NCUA only encourages credit unions consider the guidance provide in
       the letter; and

   •   Requiring the periodic rotation of the external auditor or that management assess
       the internal controls may have mitigated the loss to the NCUSIF by exposing the
       non-existence of the investments sooner.

Repetitive Issues Not Elevated for Stronger Supervisory Actions

Examiners did not ensure the credit union took corrective action on repetitive Document
of Resolution issues by elevating those issues to their Supervisory Examiner for
stronger supervisory actions, such as a Regional Director Letter or a Letter of
Understanding and Agreement. To help ensure corrective actions are taken to address
Document of Resolution issues NCUA Regional management should:

   •   Review Document of Resolution items and determine whether the credit union
       officials have taken the necessary corrective actions; and

   •   Ensure stronger supervisory actions, such as draft a Regional Director Letter,
       Letter of Understanding and Agreement, etc., are taken when credit union
       officials have not addressed and resolved Document of Resolution items within
       the agreed-upon timeframe.




                                           22
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



NCUA’s Quality Control Program Ineffective

The NCUA quality control review conducted on a New London examination did not
ensure that the examiner took the recommended corrective actions. The Region’s
Division of Supervision review recommended the examiner perform additional
procedures in assessing the credit union. However, we found no evidence that the
examiner performed additional procedures during subsequent examinations. To
enhance the effectiveness of NCUA’s quality control program:

   •   NCUA Regional management should ensure the actions taken by examiners to
       resolve recommendations from Division of Supervision Quality Control Reviews
       are addressed in writing.




                                          23
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Appendix A: Examination History

The following provides a summary of NCUA’s supervision of New London, which
includes examinations and onsite supervision contacts from September 2002 through
the June 2008 contact during which NCUA placed New London under conservatorship.

Table A-1

            New London’s Assets and CAMEL Ratings – 2002 to 2008
Examination
 or Contact   Assets Composite      C       A        M         E                      L
    Date
   6/30/08     $.49M      5          5      5        5         5                      5
   3/31/07    12.35M      2          1      1        2         3                      2
   3/31/06    12.37M      3          1      1        3         4                      2
   3/31/05    12.37M      3          2      2        3         3                      2
   6/30/04    12.21M      3          2      3        4         3                      4
   9/30/03    12.03M      2          1      1        2         1                      2
   9/30/02    11.63M      2          1      1        2         3                      2

C=Capital; A=Asset Quality; M=Management; E=Earnings; L=Liquidity



Table A-2
                    New London’s Risk Ratings – 2002 to 2008

Examination
or Contact        SR         TR       CMR        CRR         IR        LR           RR
Date
6/30/08          High       High      High       High       High      High          High
3/31/07          Mod.       Mod.      High       Low        Low       Low           Low
3/31/06          Mod.       Mod.      Low        Low        Low       Low           Low
3/31/05          High       Mod.      High       Low        High      High          High
6/30/04          High       High      High       Mod.       High      Mod.          Mod.
9/30/03          High       Mod.      Low        Low        High      Low           Low
9/30/02          High       High      Mod.       Mod.       High      Mod.          Low

SR=Strategic Risk; TR=Transaction Risk; CMR=Compliance Risk;
CRR=Credit Risk; IR=Interest Rate Risk; LR=Liquidity Risk; RR=Reputation Risk




                                          24
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Table A-3

      New London’s Concentration of Investments to Assets – 2002 to 2008

    Examination or
                           Investments            Assets            Invest/Assets
     Contact Date
       6/30/08               *$12,060,513         *$12,741,066         94.66%
       3/31/07                 11,770,179           12,351,328         95.29%
       3/31/06                 11,998,297           12,368,613         97.01%
       3/31/05                 11,879,701           12,373,958         96.01%
       6/30/04                 11,109,717           12,205,816         91.02%
       9/30/03                 11,614,063           12,033,304         96.52%
       9/30/02                 11,159,160           11,630,297         95.95%

*Prior to adjustment for suspected fraud.




                                            25
         OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Appendix B: Transaction Risk Indicators

The following summarizes NCUA Examiner’s Guide, Chapter 2, Attachment 2.1, which
provides examiners with guidance in the assignment of risk level.

   Factor                         Low                       Moderate                              High
   Board and            Fully understands all       Reasonably understands           Does not understand, or
   Operational          aspects of transaction      key aspects of transaction       chooses to ignore key
   Management           risk.                       risk.                            aspects of transaction risk.
   Understanding
   Responsiveness       Anticipates and             Adequately responds to           Does not anticipate or take
   to Market and        responds well to            changes.                         timely or appropriate actions
   Technological        changes.                                                     in response to changes.
   Conditions
   Risk Exposure        Only a slight probability   Possible loss to reputation,     Weak internal controls
                        of damage to                earnings or capital exists but   expose the credit union to
                        reputation, capital, or     is mitigated by adequate         significant damage to
                        earnings.                   internal controls.               reputation, or loss of
                                                                                     earnings or capital.
   Transaction          History or sound            History of adequate              History of transaction
   Processing           operations. Likelihood      operations. Likelihood of        processing failures.
   Controls             of transaction              transaction processing           Likelihood of future failures
                        processing failures is      failures is minimized by         is high due to absence of
                        minimal due to strong       generally effective internal     effective internal controls.
                        internal controls.          controls.
   Systems and          Strong control culture      Adequate operating and           Serious weaknesses exist in
   Controls             that results in systems,    information processing           operating and information
                        internal controls, audit,   systems, internal controls,      systems, internal controls,
                        and contingency and         audit coverage, and              audit coverage, or
                        business recovery plans     contingency and business         contingency and business
                        that are sound.             recovery plans are evident.      recovery plans.
   MIS                  Satisfactory                Minor deficiencies may exist     Significant weaknesses in
                                                    that relate to transaction and   transaction and information
                                                    information processing           processing activities.
                                                    activities.
   New Products or      Favorable performance       Planning and due diligence       Inadequate. CU is exposed
   Services             in expansions and           prior to introduction of new     to risk from the introduction
                        introductions of new        services are performed           or expansion of new
                        products and services.      although minor weaknesses        products and services.
                                                    exist.
   Conversion           Conversion plans are        Conversion plans are             CU may be exposed to
   Management           clear, comprehensive,       evident, although not always     processing risks due to poor
                        and followed.               comprehensive.                   conversion management,
                                                                                     either from the integration of
                                                                                     new acquisitions with
                                                                                     existing systems, or from
                                                                                     converting one system to
                                                                                     another.
   Problem              Management identifies       Management recognizes            Management has not
   Identification and   weaknesses quickly and      weaknesses and generally         demonstrated a commitment
   Corrective Action    takes appropriate           takes appropriate action         to make the corrections
                        action.                                                      required to improve
                                                                                     transaction processing risk
                                                                                     controls.




                                                         26
       OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Appendix C: Documents of Resolution

The following tables provide a summary of repetitive recommendations/DORs to correct
problems identified by examiners from September 30, 2002 through March 31, 2007.
The DORs are categorized by issue.

Table C-1

                               Supervisory Committee

 Examination or     DOR Items
 Contact Date
 9/30/02            Require CPA to review deferred compensation account for
                    Generally Accepted Accounting Principles
 9/30/03            No DOR item.
 6/30/04             • Become active in oversight responsibilities.
                     • Perform quarterly review of operations, including
                       recordkeeping, underwriting, internal controls, dormant
                       accounts, etc. or contract with external auditor to perform.
                     • Periodically meet and maintain minutes.
                     • Obtain on-going training.
 3/31/05             • Become active in oversight responsibilities.
                     • Perform quarterly review of operations, including
                       recordkeeping, underwriting, internal controls, dormant
                       accounts, etc. or contract with external auditor to perform.
                     • Obtain on-going training.
 3/31/06             • Establish quarterly audit plan with CPAs to review internal
                       controls.
                     • Keep written minutes.
 3/31/07            Engage external auditors to perform quarterly reviews for
                    operations, investment policy compliance, BSA/OFAC
                    compliance, inactive accounts, recordkeeping etc.

Note: Quarterly reviews were never performed, as promised by the Board




                                          27
          OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Table C-2

              Independent Investment Safekeeping/Custodial Agreement

Examination or        DOR Items
Contact Date
9/30/02               Rely on an independent third party investment safekeeper.
9/30/03               No DOR item.
6/30/04               Ensure sound, independent safekeeping practices and written
                      custodial agreement.
3/31/05               Fully address safekeeping concerns.
3/31/06               No DOR item.
3/31/07               No DOR item.

Note: There is no evidence to indicate that a safekeeping agreement was executed.

Table C-3

                   Legal Review of Safekeeping/Custodial Agreement

 Examination or        DOR Items
 Contact Date
 9/30/02               Legal counsel to ensure properly executed custodial agreement
                       that protects the credit union’s investment interests.
 9/30/03               No DOR item.
 6/30/04               No DOR item.
 3/31/05               Attorney to review a true custodial agreement that protects the
                       credit union’s interests.
 3/31/06               No DOR item.
 3/31/07               No DOR item.

Note: The examiner indicated the credit union attorney reviewed the safekeeping
agreement with no exceptions. However, the OIG could not locate such an agreement
in the examiner’s work papers.




                                             28
     OIG-09-03: MATERIAL LOSS REVIEW – NEW LONDON SECURITY FEDERAL CREDIT UNION



Appendix D: NCUA Management Comments




                                        29
